Give
  VA Office of Inspector General
                                   OFFICE OF AUDITS & EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                      Federal Information 

                                                                     Security Management 

                                                                         Act Audit for 

                                                                       Fiscal Year 2012 





                                                                                         June 27, 2013
                                                                                          12-01712-229 

              ACRONYMS AND ABBREVIATIONS 


CRISP        Continuous Readiness in Information Security Program
DHS          Department of Homeland Security
FISMA        Federal Information Security Management Act
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestones




        To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                  (Hotline Information: www.va.gov/oig/hotline) 

    Department of
    Veterans Affairs
                                                       Memorandum
Date:   June 18, 2013

From:   Assistant Inspector General for Audits and Evaluations

Subj:   Final Report: VA’s Federal Information Security Management Act Audit for FY 2012

  To:   Acting Assistant Secretary for Information and Technology

        1.	 Enclosed is the final audit report, Federal Information Security Management Act
            Audit for FY 2012. The Office of Inspector General (OIG) contracted with the
            independent public accounting firm, CliftonLarsonAllen LLP, to assess the
            Department of Veterans Affairs’ (referred to herein as the Department) information
            security program in accordance with the Federal Information Security Management
            Act (FISMA).
        2.	 To ensure the adequacy and effectiveness of information security controls, FISMA
            requires agency program officials, Chief Information Officers, and Inspectors General
            to annually review the agency’s information security program and report the results to
            the Department of Homeland Security (DHS). DHS uses this data to assist in its
            oversight responsibilities and to prepare an annual report to Congress on agency
            compliance with FISMA.
        3.	 The Department continues to face significant challenges in complying with the
            requirements of FISMA due to the nature and maturity of its information security
            program. In order to better achieve FISMA outcomes, the Department needs to focus
            on several key areas including:
           	 Addressing security-related issues that contributed to the information technology
              material weakness reported in the FY 2012 audit of the Department’s
              consolidated financial statements, including expediting implementation plans for
              corrective actions needed to effectively address the recommendations made in this
              report.
           	 Successfully remediating high-risk system security issues in its Plans of Action
              and Milestones, and use that process to improve VA’s information security
              posture.
           	 Establishing effective processes for evaluating information security controls via
              continuous monitoring and vulnerability assessments.
        4.	 CliftonLarsonAllen LLP was contracted to perform the FISMA audit and is
            responsible for the findings and recommendations included in the attached draft
            report dated June 2013. The OIG does not express an opinion on the effectiveness of
            the Department’s internal controls during FY 2012.



                                                                                                 i
5.	 This report provides 32 recommendations for improving VA’s information security
    program; 27 recommendations are included in the report body and
    5 recommendations are provided in Appendix A. The Appendix addresses the
    status of prior year recommendations not included in the report body and VA’s
    plans for corrective action. During FY 2012, two recommendations were
    administratively closed because VA’s corrective actions successfully addressed the
    underlying risks; a third recommendation was closed because it was superseded by
    a more current recommendation. Some recommendations have been modified to
    reflect new security risks identified during this year’s audit.
6.	 As part of this year’s audit, CliftonLarsonAllen LLP examined whether the
    Department’s corrective actions successfully addressed the outstanding
    recommendations. Some recommendations were not closed because relevant
    information security policies and procedures were not finalized or information
    security control deficiencies were repeated or newly identified during the
    FY 2012 FISMA audit.
7.	 We remain concerned that the presented implementation plan in your official
    comments, contains milestones for completion well into FY 2014, for the following
    areas:
   	 Agency-wide risk management program (recommendation 5)
   	 Identity management and access control (recommendations 7, 9, and 10)
   	 Configuration management controls (recommendation 12)
   	 System development / change management controls (recommendation 15)
   	 Incident response (recommendation 19)
   	 Continuous network monitoring (recommendation 22)
8.	 The impact of these open recommendations needs to be considered in the
    FY 2013 assessment of VA’s security posture. Since several recommendations will
    remain open through FY 2014, the delays implementing effective corrective actions
    can potentially contribute to reporting an IT material weakness in this year’s audit of
    VA’s Consolidated Financial Statements.
9.	 Our independent auditors will follow up on the outstanding recommendations and
    evaluate the adequacy of corrective actions during the FY 2013 FISMA audit.
    However, in an effort to better oversee the implementation plan to completion in
    FY 2014, OIG will require interim progress reports quarterly starting
    October 1, 2013.




LINDA A. HALLIDAY 



                                                                                         ii
                                                                       CliftonLarsonAllen LLP
                                                                       11710 Beltsville Drive, Suite 300
                                                                       Calverton, MD 20705
                                                                       301-931-2050 | fax 301-931-1710
                                                                       www.cliftonlarsonallen.com




May 30, 2013


The Honorable George Opfer
Inspector General
Department of Veterans Affairs
801 I Street, Northwest
Washington, DC 20001

Dear Mr. Opfer:

Attached is our report on the performance audit we conducted to evaluate the Department of
Veterans Affairs’ (VA) compliance with the Federal Information Security Management Act of
2002 (FISMA) for the federal fiscal year ending September 30, 2012 in accordance with
guidelines issued by the United States Office of Management and Budget (OMB) and applicable
National Institute for Standards and Technology (NIST) information security guidelines.

CliftonLarsonAllen LLP was contracted to perform the FISMA audit and is responsible for the
findings and recommendations highlighted in the attached report. We conducted this
performance audit in accordance with Government Auditing Standards developed by the
Government Accountability Office. This is not an attestation level report as defined under the
American Institute of Certified Public Accountants standards for attestation engagements. Our
procedures were designed to respond to the FISMA-related questions outlined in the OMB
template for the Inspectors General and evaluate VA’s information security program’s
compliance with FISMA requirements and applicable NIST information security guidelines as
defined in our audit program. Based on our audit procedures, we conclude that VA continues to
face significant challenges meeting the requirements of FISMA.

We have performed the FISMA performance audit, using procedures prepared by
CliftonLarsonAllen LLP and approved by the Office of the Inspector General (OIG), during the
period April 2012 through November 2012. Had other procedures been performed, or other
systems subjected to testing, different findings, results, and recommendations might have been
provided. The projection of any conclusions, based on our findings, to future periods is subject to
the risk that changes made to the information security program or controls, or the failure to make
needed changes to the system or controls may alter the validity of such conclusions.

We performed limited reviews of the findings, conclusions, and opinions expressed in this report
that were related to the financial statement audit performed by CliftonLarsonAllen LLP. The
financial statement audit results have been combined with the FISMA performance audit
findings. We do not provide an opinion regarding the results of the financial statement audit
results. In addition to the findings and recommendations, our conclusions related to VA are

                                                                                                           iii
contained within the OMB FISMA reporting template provided to the OIG in November 2012.
The completion of the OMB FISMA reporting template was based on management’s assertions
and the results of our FISMA test procedures while the OIG determined the status of the prior
year recommendations with the support of CliftonLarsonAllen.

This report is intended solely for those on the distribution list on Appendix F, and is not intended
to be and should not be used by anyone other than these specified parties.

Sincerely,


CLIFTONLARSONALLEN LLP




GFF:sgd 




                                                                                                 iv
                    Report Highlights: VA’s FISMA Audit
                    for FY 2012

Why We Did This Audit                           Further,    VA      has     not   remediated
                                                approximately 4,000 outstanding system
The      Federal    Information    Security     security risks in its corresponding Plans of
Management Act (FISMA) requires agency          Action and Milestones to improve its overall
Inspectors General to annually assess the       information security posture. As a result of
effectiveness of agency information security    the FY 2012 consolidated financial
programs and practices. Our FY 2012 audit       statement audit, CliftonLarsonAllen LLP
determined the extent to which VA’s             concluded a material weakness still exists in
information security program complied with      VA’s information security program.
FISMA requirements and applicable
National Institute for Standards and            What We Recommend
Technology guidelines. We contracted with
an      independent     accounting     firm,    We recommend the Acting Assistant
CliftonLarsonAllen LLP, to perform this         Secretary for Information and Technology
audit.                                          implement comprehensive measures to
                                                mitigate security vulnerabilities affecting
What We Found                                   VA’s mission-critical systems.

VA has made progress developing policies        Agency Comments
and procedures but still faces challenges
implementing components of its agency-          The Acting Assistant Secretary for
wide information security risk management       Information and Technology agreed with
program to meet FISMA requirements.             our findings and recommendations and
While some improvements were noted,             provided plans for corrective actions.
FISMA audits continued to identify
significant deficiencies related to access      OIG Comments
controls,     configuration      management
controls, continuous monitoring controls,       We will monitor implementation of the
and service continuity practices designed to    action plans.       However, we remain
protect mission-critical systems. Also, prior   concerned that several of the action plans
FISMA recommendations remain open.              are not expected to be in place until
                                                September 2014 for both new and prior
Weaknesses in access and configuration          recommendations.        OIG will monitor
management controls resulted from VA not        implementation through interim progress
fully    implementing    security    control    reports until proposed actions are complete.
standards on all servers and network
devices.    VA also has not effectively
implemented procedures to identify and
remediate system security vulnerabilities on
network devices, database and server                      LINDA A. HALLIDAY
platforms, and Web applications VA-wide.               Assistant Inspector General
                                                       for Audits and Evaluations
                                                                                          v
                                                                                                         VA’s FISMA Audit for FY 2012



                                           TABLE OF CONTENTS 

Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    Finding 1              Agency-wide Risk Management Program ..........................................................2
 
                           Recommendations ...............................................................................................4
 
    Finding 2              Identity Management and Access Controls ........................................................6
 
                           Recommendations ...............................................................................................7
 
    Finding 3              Configuration Management Controls..................................................................9
 
                           Recommendations .............................................................................................10
 
    Finding 4              System Development/Change Management Controls ......................................11
 
                           Recommendation...............................................................................................11
 
    Finding 5              Contingency Planning .......................................................................................12
 
                           Recommendations .............................................................................................12
 
    Finding 6              Incident Response .............................................................................................14
 
                           Recommendations .............................................................................................15
 
    Finding 7              Continuous Monitoring .....................................................................................16
 
                           Recommendations .............................................................................................17
 
    Finding 8              Security capital planning...................................................................................18
 
                           Recommendation...............................................................................................18
 
    Finding 9              Contractor Systems Oversight...........................................................................19
 
                           Recommendations .............................................................................................19
 
    Finding 10             Security Awareness Training ............................................................................20
 
                           Recommendation...............................................................................................20
 
   Appendix A  Status of Prior-Year Recommendations ........................................................... 22
 
   Appendix B              Background ...................................................................................................... 27
 
   Appendix C              Scope and Methodology................................................................................... 29
 
   Appendix D  Acting Assistant Secretary for Information and Technology Comments ........ 31
 
   Appendix E              Office of Inspector General Contact and Staff Acknowledgements ................ 41
 
   Appendix F              Report Distribution........................................................................................... 42
 




VA Office of Inspector General                                                                                                                  vi
                                                                     VA’s FISMA Audit for FY 2012



                    INTRODUCTION
Objective           The objective of this audit was to determine the extent to which VA’s
                    information security program and practices comply with Federal
                    Information Security Management Act (FISMA) requirements,
                    Department of Homeland Security (DHS) reporting requirements, and
                    applicable Office of Management and Budget (OMB) and National Institute
                    for Standards and Technology (NIST) guidance. The VA Office of
                    Inspector General (OIG) contracted with the independent accounting firm
                    CliftonLarsonAllen LLP to perform the FY 2012 FISMA audit.

Overview            Information security is a high-risk area Government-wide. Congress
                    passed the E-Government Act of 2002 (Public Law 107-347) in an
                    effort to strengthen Federal information security programs and practices.
                    FISMA provides a comprehensive framework to ensure the effectiveness of
                    security controls over information resources that support Federal
                    operations and assets. Audit teams assessed the Department’s information
                    security program through inquiries, observations, and tests of selected
                    controls supporting 81 major applications and general support systems at
                    22 VA facilities. The teams identified specific deficiencies in the following
                    areas.

                    1. Agency-Wide Risk Management Program
                    2. Identity Management and Access Controls
                    3. Configuration Management Controls
                    4. System Development/Change Management Controls
                    5. Contingency Planning
                    6. Incident Response
                    7. Continuous Monitoring
                    8. Security Capital Planning
                    9. Contractor Systems Oversight
                    10. Security Awareness Training

                    This report provides 32 total recommendations, including four new
                    recommendations, for improving VA’s information security program.
                    27 recommendations are included in the report body and five
                    recommendations are provided in Appendix A. The Appendix addresses
                    the status of recommendations not included in the report body and VA’s
                    plans for corrective action. During FY 2012, two recommendations were
                    administratively closed because VA’s corrective actions successfully
                    addressed the underlying risks; a third recommendation was closed
                    because it was superseded by a more current recommendation. These
                    recommendations are annotated as “closed” in Appendix A. The FY 2011
                    report provided 31 recommendations for improvement.

VA Office of Inspector General                                                                  1
                                                                    VA’s FISMA Audit for FY 2012



                    RESULTS AND RECOMMENDATIONS
Finding 1           Agency-wide Risk Management Program

                    FISMA requires each Federal agency to develop, document, and
                    implement an agency-wide information security risk management
                    program. VA has made progress developing policies and procedures as
                    part of its program. However, VA still faces challenges implementing
                    components of its agency-wide information security risk management
                    program to meet FISMA requirements. Consequently, FISMA audits
                    continue to identify significant deficiencies related to access controls,
                    configuration management controls, change management controls, and
                    service continuity practices designed to protect mission-critical systems
                    from unauthorized access, alteration, or destruction.

Progress            In 2007, the Department issued VA Directive 6500, Information Security
Made While          Program, and VA Handbook 6500, Information Security Program,
Challenges
Remain
                    defining the high-level policies and procedures to support its agency-wide
                    information security risk management program. In FY 2012, VA began
                    updating VA Handbook 6500 to be consistent with revised NIST Special
                    Publications and to supplement existing VA directives and handbooks.
                    OMB Memorandum M-12-20, FY 2012 Reporting Instructions for the
                    Federal Information Security Management Act and Agency Privacy
                    Management, issued in September 2012, provides guidance for Federal
                    agencies to follow in meeting the report requirements under FISMA.

                    To address annual reporting requirements and ongoing system security
                    weaknesses, VA launched a Continuous Readiness in Information Security
                    Program (CRISP). The program is intended to improve access controls,
                    configuration management, contingency planning, and the security
                    management of a large number of information technology systems. VA also
                    established a CRISP core team to oversee this initiative and resolve the
                    information security material weakness related to information technology
                    security controls, as reported in VA’s annual audit of its consolidated
                    financial status. As a result of the CRISP initiative, we noted improvements
                    related to:

                       Training, both role-based and security awareness 
                       Testing contingency plans  
                       Reducing the number of outstanding Plans of Action and Milestones
                        (POA&Ms) 
                       Developing initial baseline configurations




VA Office of Inspector General                                                                 2
                                                                     VA’s FISMA Audit for FY 2012


                       Reducing the number of individuals with outdated background
                        investigations 
                       Improving data center Web application security 

                    Because the CRISP initiative was not launched until March 2012, the process
                    improvements were not implemented for an entire fiscal year.

                    Moving forward, VA needs to ensure a proven process is in place to sustain
                    the improvements achieved thus far. VA also needs to continue to address
                    control deficiencies existing in other areas across all VA locations. While
                    VA has made progress updating risk management policies and procedures,
                    our FISMA audits identified deficiencies related to VA’s risk management
                    approach, POA&Ms, and system security plans, which are discussed in the
                    following section. Each of these processes is critical for protecting the
                    Department’s mission-critical systems through appropriate risk mitigation
                    strategies.

Risk                VA has not fully developed and implemented components of its agency-wide
Management          information security risk management program to meet FISMA
Strategy
                    requirements. Specifically, VA has not ensured that its information security
                    controls are effectively monitored on an ongoing basis to include
                    documenting significant changes to the system, conducting security impact
                    analyses for system changes, and reporting system changes to designated
                    organizational officials. Risk Assessments were not properly updated as they
                    included references to inaccurate system environment information. Further,
                    some security self assessments were not performed annually in accordance
                    with FISMA requirements.

                    NIST SP 800-37, Guide for Applying the Risk Management Framework to
                    Federal Information Systems: A Security Life Cycle Approach, states that an
                    agency’s risk management framework should address “risk from an
                    organizational perspective with the development of a comprehensive
                    governance structure and organization-wide risk management strategy.” VA
                    began updating its VA Handbook 6500 to provide guidelines on how to
                    comply with revised risk management requirements. Additionally, VA is
                    implementing a risk governance structure, including a Risk Management
                    Governance Board and strategy to monitor system security risks and
                    implement risk mitigation controls across the enterprise. Until this effort is
                    complete, enterprise-wide risks may not be fully identified or mitigated with
                    appropriate risk mitigation strategies.

Plans of            OMB Memorandum M-02-01, Guidance for Preparing and Submitting
Action and          Security Plans of Action and Milestones, defines management and reporting
Milestones
                    requirements for agency POA&Ms, including deficiency descriptions,
                    remediation actions, required resources, and responsible parties. According
                    to data available from VA’s central reporting database, VA has reduced the
                    number of open POA&Ms from approximately 15,000 in FY 2011 to

VA Office of Inspector General                                                                   3
                                                                     VA’s FISMA Audit for FY 2012


                    4,000 in FY 2012. POA&Ms identify which actions must be taken to
                    remediate system security risks and improve VA’s information security
                    posture. POA&M reductions partially resulted from VA leveraging FISMA
                    stakeholder teams to ensure that corrective actions address previous FISMA
                    report recommendations.

                    VA has made progress in updating and closing POA&Ms in a timelier
                    manner across VA sites and systems. Despite these improvements, audit
                    teams continue to identify deficiencies related to reporting, managing, and
                    closing POA&Ms. For example, audit teams identified POA&Ms that
                    lacked sufficient documentation to justify closure, action items that missed
                    major milestones, and items that were not updated to accurately reflect their
                    current status. In addition, many POA&Ms were closed based upon
                    Executive Decision Memoranda or Risk-Based Decision Memoranda;
                    however, system security risks still remain as the underlying weaknesses
                    have not been fully remediated.

                    POA&M deficiencies resulted from a lack of accountability for closing
                    items and a lack of controls to verify supporting documentation had been
                    input to the central database. Furthermore, unclear responsibility for
                    addressing POA&M records at the “local” level continues to adversely affect
                    remediation efforts across the enterprise. By failing to fully remediate
                    significant system security risks in the near term, VA management cannot
                    ensure that information security controls will protect VA systems
                    throughout their life cycles. Further, without sufficient documentation in
                    the central database to justify closure of POA&Ms, VA cannot ensure that
                    corresponding security risks have been fully mitigated.

System              Audit teams continue to identify system security plans with inaccurate
Security Plans      information regarding operational environments including system
                    interconnections and compensating information security controls. VA
                    Handbook 6500, Appendix D provides guidelines on maintaining and
                    updating system security plans for major applications and general support
                    systems. Because of deficiencies in this area, system owners may not fully
                    identify relative boundaries, interdependencies, compensating information
                    security controls, and security risks affecting mission-critical systems.

                    Recommendations

                    1.	   We recommend the Acting Assistant Secretary for Information and
                          Technology fully develop and implement an agency-wide risk
                          management governance structure, along with mechanisms to
                          identify, monitor, and manage risks across the enterprise. (This is a
                          repeat recommendation from last year.)
                    2.	   We recommend the Acting Assistant Secretary for Information and
                          Technology implement mechanisms to ensure sufficient supporting

VA Office of Inspector General                                                                  4
                                                                   VA’s FISMA Audit for FY 2012


                          documentation is captured in the central database to justify closure
                          of Plans of Action and Milestones. (This is a repeat recommendation
                          from last year.)
                    3.	   We recommend the Acting Assistant Secretary for Information and
                          Technology define and implement clear roles and responsibilities
                          for developing, maintaining, completing, and reporting Plans of
                          Action and Milestones. (This is a repeat recommendation from last
                          year.)
                    4.	   We recommend the Acting Assistant Secretary for Information and
                          Technology implement mechanisms to ensure Plans of Action and
                          Milestones are updated to accurately reflect current status
                          information. (This is a repeat recommendation from last year.)
                    5.	   We recommend the Acting Assistant Secretary for Information and
                          Technology develop mechanisms to ensure system security plans
                          reflect current operational environments, including accurate system
                          interconnection and ownership information. (This is a repeat
                          recommendation from last year.)
                    6.	   We recommend the Acting Assistant Secretary for Information and
                          Technology implement improved processes for updating key
                          security documents such as risk assessments, security impact
                          analyses, and security self assessments on at least an annual basis
                          and ensure all required information accurately reflects the current
                          environment and new risks in accordance with Federal standards.
                          (This is a new recommendation.)




VA Office of Inspector General                                                                5
                                                                    VA’s FISMA Audit for FY 2012


Finding 2           Identity Management and Access Controls

                    Audit teams identified significant deficiencies in VA’s identity
                    management and access controls. VA Handbook 6500, Appendixes D and F,
                    provides comprehensive guidelines for authenticating users and protecting
                    VA’s critical systems from unauthorized access, alteration, or destruction.
                    Our FISMA audit identified significant information security control
                    deficiencies in the following areas.

                       Password Management 
                       Access Management 
                       Audit Trails 
                       Remote Access  

Password            While VA Handbook 6500, Appendix F establishes password management
Management          standards for authenticating VA system users, our audit teams
                    continued to identify multiple password management vulnerabilities. For
                    example, the teams found a significant number of weak passwords on major
                    databases, applications, and networking devices at most VA facilities.
                    Additionally, password parameter settings for network domains, databases,
                    key financial applications, and servers were not consistently configured to
                    enforce VA’s password policy standards.

                    While some improvements have been made, we continue to identify security
                    weaknesses that were not remediated from prior years. Many of these
                    weaknesses can be attributed to VA’s ineffective enforcement of its
                    agency-wide information security risk management program and
                    ineffective communication from senior management to the individual field
                    offices. The use of weak passwords is a well-known security vulnerability
                    that allows malicious users to easily gain unauthorized access to
                    mission-critical systems.

Access              VA Handbook 6500, Appendix D details access management policies and
Management          procedures for VA’s information systems. However, reviews of permission
                    settings identified numerous instances of unnecessary system privileges,
                    unauthorized user accounts, accounts without formal access authorizations,
                    and active accounts for terminated employees. User access requests were not
                    consistently reviewed to eliminate conflicting roles and enforce segregation
                    of duties principles. Additionally, we noted inconsistent monitoring of
                    access in production environments for individuals with excessive application
                    privileges within major applications. This occurred because VA has not
                    implemented effective reviews to eliminate such instances of unauthorized
                    system access and excessive permissions. Periodic reviews are critical to
                    restrict legitimate users to specific systems, programs, and data and to
                    prevent unauthorized access by both internal and external users.

VA Office of Inspector General                                                                 6
                                                                     VA’s FISMA Audit for FY 2012


                    Unauthorized access to critical systems can leave sensitive data vulnerable to
                    inappropriate modification or destruction.

Audit Trails        VA did not consistently review security violations and audit logs supporting
                    mission-critical systems. VA Handbook 6500, Appendix D provides
                    high-level policy and procedures for collection and review of system audit
                    logs. However, most VA facilities did not have audit policy settings
                    configured on major systems and had not implemented automated
                    mechanisms needed to periodically monitor systems audit logs. Such audit
                    trail reviews are critical to facilitate security-related activities, such as
                    determining individual accountability, reconstructing security events,
                    detecting intruders, and identifying system performance issues.

Remote              VA lacks a consistent process for managing remote access to VA
Access              networks. In addition, multi-factor authentication for remote access
                    has not been implemented across the agency. VA Handbook 6500,
                    Appendix D establishes high-level policy and procedures for
                    managing remote connections. VA personnel can remotely log onto
                    VA networks using several virtual private network applications for
                    encrypted remote access. However, one specific application does not
                    ensure end-user computers are updated with current system security patches
                    and antivirus signatures before users remotely connect to VA
                    networks. Although the remote connections are encrypted, end-user
                    computers could be infected with malicious viruses or worms, which
                    can easily spread to interconnected systems. VA is migrating most remote
                    users to virtual private network solutions that will better protect end-user
                    computers through automated system updates. Moving forward, VA
                    needs to fully implement multi-factor authentication for remote access
                    and ensure that all remote users’ computers are adequately protected before
                    connecting to VA networks.

                    Recommendations

                    7.	   We recommend the Acting Assistant Secretary for Information and
                          Technology implement mechanisms to enforce VA password
                          policies and standards on all operating systems, databases,
                          applications, and network devices. (This is a repeat recommendation
                          from last year.)
                    8.	   We recommend the Acting Assistant Secretary for Information and
                          Technology implement periodic access reviews to minimize access
                          by system users with incompatible roles, permissions in excess of
                          required functional responsibilities, and unauthorized accounts.
                          (This is a repeat recommendation from last year.)

                    9.	   We recommend the Acting Assistant Secretary for Information and
                          Technology enable system audit logs and conduct centralized

VA Office of Inspector General                                                                   7
                                                                    VA’s FISMA Audit for FY 2012


                          reviews of security violations on mission-critical systems. (This is a
                          repeat recommendation from last year.)

                    10.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement mechanisms to ensure all remote access
                         computers have updated security patches and antivirus definitions
                         prior to connecting to VA information systems. (This is a repeat
                         recommendation from last year.)

                    11.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement two-factor authentication for remote access
                         throughout the agency. (This is a new recommendation.)




VA Office of Inspector General                                                                 8
                                                                       VA’s FISMA Audit for FY 2012


Finding 3           Configuration Management Controls

                    Audit teams continue to identify significant deficiencies in configuration
                    management controls designed to ensure VA’s critical systems have
                    appropriate security baselines and up-to-date vulnerability patches
                    implemented. VA Handbook 6500, Appendix D provides high-level policy
                    guidelines regarding mandatory configuration settings for information
                    technology hardware, software, and firmware. However, testing identified
                    unsecure Web application servers, excessive permissions on database
                    platforms, a significant number of outdated and vulnerable third-party
                    applications and operating system software, and a lack of common platform
                    security standards across the enterprise.

Unsecure Web        Assessments of Web-based applications identified several instances of VA
Applications        data facilities hosting unsecure Web-based services that could allow
                    malicious users to gain unauthorized access to VA information systems.
                    Additionally, an attacker could potentially alter sensitive data or covertly run
                    unauthorized programs on Web applications. NIST Special Publication
                    800-44, Version 2, Guidelines in Securing Public Web Servers, recommends
                    “Organizations should implement appropriate security management practices
                    and controls when maintaining and operating a secure Web Server.” Despite
                    the guidelines, VA has not implemented effective controls to identify and
                    remediate security weaknesses on its Web applications. VA has mitigated
                    some information system security risks from the Internet through the use of
                    network filtering appliances. However, VA’s internal network remains
                    susceptible to attack from malicious users who could exploit vulnerabilities
                    and gain unauthorized access to VA information systems.

Unsecure            Database vulnerability assessments continue to identify a significant number
Database            of unsecure configuration settings that could allow any database user to gain
Applications
                    unauthorized access to critical system information. NIST Special Publication
                    800-64, Revision 1, Security Considerations in the Information System
                    Development Life Cycle, states that configuration management and control
                    procedures are critical to establishing an initial baseline of hardware,
                    software, and firmware components for the information system. VA has not
                    implemented effective controls to identify and remediate security weaknesses
                    on databases hosting mission-critical applications. Unsecure database
                    configuration settings can allow any database user to gain unauthorized
                    access to critical systems information.

Application         Network vulnerability assessments again identified a significant number of
and System          outdated operating systems and vulnerable third-party applications that could
Software            allow unauthorized access to mission-critical systems and data. NIST
Vulnerabilities
                    Special Publication 800-40, Version 2, Creating a Patch and Vulnerability
                    Management Program, states an agency’s patch and vulnerability
                    management program should be integrated with configuration management


VA Office of Inspector General                                                                    9
                                                                     VA’s FISMA Audit for FY 2012


                    to ensure efficiency. VA has not implemented effective controls to identify
                    and remediate security weaknesses associated with outdated third-party
                    applications and operating system software.             Deficiencies in the
                    Department’s patch and vulnerability management program could allow
                    malicious users unauthorized access to mission-critical systems and data. By
                    implementing a robust patch and vulnerability management program, VA
                    could effectively remediate vulnerabilities identified in operating systems,
                    databases, applications, and other network devices.

Baseline            VA was still working to develop guidelines to define agency-wide security
Security            configuration baselines for its major information system components.
Configurations
                    FISMA Section 3544 requires each agency to establish minimally acceptable
                    system configuration requirements and ensure compliance. However, we
                    noted that common platform security standards and Federal Desktop Core
                    Configurations were not consistently implemented on all VA systems. For
                    example, testing at VA facilities revealed varying levels of compliance (88 to
                    96 percent) with Federal Desktop Core Configurations standards for end-user
                    systems. Testing also identified numerous network devices not configured to
                    a common security configuration standard, resulting in default network
                    services, excessive permissions, weak administrator passwords, and outdated
                    versions of the network operating system. By not implementing consistent
                    agency-wide configuration management standards for major applications and
                    general support systems, VA is placing critical systems at unnecessary risk of
                    unauthorized access, alteration, or destruction.

                    Recommendations

                    12.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement effective automated mechanisms to
                         continuously identify and remediate security deficiencies on VA’s
                         network infrastructure, database platforms, and Web application
                         servers. (This is a modified repeat recommendation from last year.)
                    13.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement a patch and vulnerability management program
                         to address security deficiencies identified during our assessments of
                         VA’s Web applications, database platforms, network infrastructure, and
                         work stations. (This is a modified repeat recommendation from last
                         year.)

                    14.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement standard security configuration baselines for all
                         VA operating systems, databases, applications, and network devices.
                         (This is a repeat recommendation from last year.)




VA Office of Inspector General                                                                 10
                                                                     VA’s FISMA Audit for FY 2012


Finding 4           System Development/Change Management Controls

                    VA has not fully implemented procedures to enforce standardized system
                    development and change management controls for its mission-critical
                    systems. FISMA Section 3544 requires establishing policies and procedures
                    to ensure information security is addressed throughout the life cycle of each
                    agency information system. VA Handbook 6500.5, Incorporating Security
                    and Privacy into the System Development Life Cycle, also discusses
                    integrating information security controls and privacy throughout the life
                    cycle of each system.

                    Our audit teams continued to identify software changes to mission critical
                    systems and infrastructure network devices that did not follow standardized
                    software change control procedures. Further, numerous test plans, test
                    results, and approvals were either incomplete or missing. By not enforcing a
                    standardized change control methodology, system development projects may
                    be inconsistently developed, tested, and migrated into production, placing
                    VA systems at risk of unauthorized or unintended software modifications.

                    Recommendation

                    15.	 We recommend the Acting Assistant Secretary       for Information and
                         Technology implement procedures to enforce a      system development
                         and change control framework that integrates      information security
                         throughout the life cycle of each system.          (This is a repeat
                         recommendation from last year.)




VA Office of Inspector General                                                                11
                                                                       VA’s FISMA Audit for FY 2012


Finding 5           Contingency Planning

                    Overall, we noted an improvement in contingency plan testing since our FY
                    2011 audit. However, VA contingency plans still were not fully documented
                    and test results were not consistently communicated to senior management.
                    While VA Handbook 6500, Appendix D establishes high-level policy and
                    procedures for contingency planning and plan testing, our assessment
                    identified the following deficiencies related to contingency planning.

                    	 Many Information System Contingency Plans had not been updated to
                       reflect lessons learned from contingency and disaster recovery tests,
                       provide detailed recovery procedures for all system priority components,
                       or reflect current operating conditions.
                    	 Alternate processing site agreements between the Regional Office and
                       Information Technology Centers were not in place to ensure all parties
                       are aware of respective responsibilities in the event of a disaster.
                    	 Backup tapes for mission critical systems were not encrypted prior to
                       being sent offsite for storage.
                    Incomplete documentation of test plans, test results, and alternate processing
                    site agreements prevent timely restoration of services in the event of system
                    disruption or disaster. Inadequate testing may lead to critical system failures
                    during the execution of system contingency plans.                     Inadequate
                    communication of test results may prevent lessons learned from being
                    recognized and adopted. Moreover, by not encrypting backup tapes, VA is at
                    risk of potential data theft or unauthorized disclosure of sensitive data.

                    In October 2011, VA implemented the Office of Information and
                    Technology Annual Security Calendar requiring all Information System
                    Contingency and Disaster Recovery Plans to be updated on an annual basis.

                    Recommendations

                    16.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement processes to ensure information system
                         contingency plans are updated with the required information and
                         lessons learned are communicated to senior management. (This is a
                         modified repeat recommendation from last year.)

                    17.	 We recommend the Acting Assistant Secretary for Information and
                         Technology develop and implement a process for ensuring the
                         encryption of backup data prior to transferring the data offsite.
                         (This is a new recommendation.)




VA Office of Inspector General                                                                   12
                                                                  VA’s FISMA Audit for FY 2012


                    18.	 We recommend the Acting Assistant Secretary for Information and
                         Technology ensure that agreements for alternate processing sites
                         have been established that define the roles and responsibilities for
                         alternate locations in the event of a disaster. (This is a new
                         recommendation.)




VA Office of Inspector General                                                             13
                                                                       VA’s FISMA Audit for FY 2012


Finding 6           Incident Response

                    VA is unable to monitor all external interconnections and internal network
                    segments for malicious traffic or unauthorized systems access attempts.
                    FISMA Section 3544 requires each agency to develop and implement an
                    agency-wide information security program containing specific procedures for
                    detecting, reporting, and responding to computer security incidents. Audit
                    teams identified deficiencies with VA’s security incident management and
                    external network monitoring processes.

                    VA performs significant monitoring of its known Internet gateways to
                    identify and respond to computer security events and potential network
                    intrusions. This monitoring includes some event correlation, which is the
                    process of tying multiple entries together to identify larger trends, intrusions,
                    or intrusion attempts. However, VA has not fully implemented security
                    information and event management technologies needed for effective event
                    correlation analysis. VA also has no automated 24-hour security alert
                    capability for all platforms and databases hosted at its Information
                    Technology Centers.

                    To improve incident management, VA’s Network Security Operations
                    Center continues to implement its Trusted Internet Connection initiative to
                    identify all system interconnections and consolidate them into four VA
                    gateways. Although progress has been made in cataloging the many
                    interconnections for monitoring purposes, unknown and unmonitored
                    connections still exist. In addition, our audit teams continued to identify
                    several system interconnections without valid Interconnection Security
                    Agreements and Memoranda of Understanding to govern them. Ineffective
                    monitoring of external network interconnections could prevent VA from
                    detecting and responding to an intrusion attempt in a timely manner.

                    Our audits continue to identify numerous high-risk computer security
                    incidents, including malware infections that were not remediated in a timely
                    manner. Specifically, we noted a high number of malware security incident
                    tickets that took more than 30 days to remediate and close. While VA’s
                    performance has improved from the prior year, the process for tracking
                    higher risk tickets remained inefficient, and some computer security
                    incidents were not remediated in a timely manner. By contrast, NIST Special
                    Publication 800-61, Computer Security Incident Handling Guide, provides
                    examples of computer security incident response times ranging from
                    15 minutes to 4 hours, based on criticality of the incidents. The guide also
                    recommends that organizations develop their own incident response times
                    based on organizational needs and the criticality of resources affected by the
                    security incidents.




VA Office of Inspector General                                                                    14
                                                                     VA’s FISMA Audit for FY 2012


                    Recommendations

                    19.	 We recommend the Acting Assistant Secretary for Information and
                         Technology fully implement an automated 24-hour security event and
                         incident correlation solution to monitor security for all systems
                         interconnections, database security events, and mission-critical
                         platforms supporting VA programs and operations. (This is a modified
                         repeat recommendation from last year.)

                    20.	 We recommend the Acting Assistant Secretary for Information and
                         Technology identify all external network interconnections and ensure
                         appropriate Interconnection Security Agreements and Memoranda of
                         Understanding are in place to govern them. (This is a repeat
                         recommendation from last year.)

                    21.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement more effective agency-wide incident response
                         procedures to ensure timely resolution of computer security incidents in
                         accordance with VA set standards. (This is a modified repeat
                         recommendation.)




VA Office of Inspector General                                                                15
                                                                       VA’s FISMA Audit for FY 2012


Finding 7           Continuous Monitoring

                    VA lacks an effective continuous monitoring process to identify its hardware
                    and software inventory and perform automated monitoring for unauthorized
                    software and hardware devices. NIST Special Publication 800-53, Revision
                    3, Recommended Security Controls for Federal Information Systems and
                    Organizations, outlines the importance of deploying automated mechanisms
                    to detect unauthorized components and configurations within agency
                    networks. Because of inadequate VA monitoring procedures, our technical
                    testing continued to identify significant deficiencies with configuration
                    management controls designed to protect mission-critical systems from
                    unauthorized access, alteration, or destruction. For instance, our testing
                    identified unsecure Web application servers, excessive permissions on
                    database platforms, a significant number of outdated and vulnerable third-
                    party applications and operating system software, and inconsistent platform
                    security standards across the enterprise.

                    To better meet continuous monitoring requirements, VA’s Information
                    Security Continuous Monitoring Concept of Operations established a
                    centralized, enterprise information technology framework that supports
                    operational security demands for protection of critical information. VA’s
                    Information Security Continuous Monitoring process is being developed by
                    the Office of Information and Technology’s Office of Cyber Security. This
                    framework is based on guidance from Continuous Monitoring Workgroup
                    activities sponsored by the Department of Homeland Security and the
                    Department of State. The goal of Information Security Continuous
                    Monitoring is to examine the enterprise to develop a real-time analysis of
                    actionable risks that may adversely impact mission-critical systems.

                    VA has improved systems and data security control protections by
                    implementing technological solutions, such as secure remote access,
                    application filtering, and portable storage device encryption. Further, VA is
                    deploying various software and configuration monitoring tools to VA
                    facilities as part of its “Visibility to Server” and “Visibility to Desktop”
                    initiatives. However, VA has not fully implemented the tools necessary to
                    inventory the software components supporting critical programs and
                    operations. Incomplete inventories of critical software components can
                    hinder patch management processes and restoration of critical services in the
                    event of a system disruption or disaster. Additionally, our testing reveals that
                    VA facilities have not made effective use of these tools to actively monitor
                    their networks for unauthorized software, hardware devices, and system
                    configurations.




VA Office of Inspector General                                                                   16
                                                                   VA’s FISMA Audit for FY 2012


                    Recommendations

                    22.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement effective continuous monitoring processes to
                         identify and prevent the use of unauthorized application software,
                         hardware (including personal storage devices), and system
                         configurations on its networks. (This is a repeat recommendation from
                         last year.)
                    23.	 We recommend the Acting Assistant Secretary for Information and
                         Technology develop a comprehensive software inventory process to
                         identify major and minor software applications used to support VA
                         programs and operations. (This is a repeat recommendation from last
                         year.)




VA Office of Inspector General                                                              17
                                                                     VA’s FISMA Audit for FY 2012


Finding 8           Security capital planning

                    VA has not implemented processes to fully account for security-related
                    costs within its Capital Planning and Investment Control budget process.
                    As a result, the audit team was unable to trace Plans of Action and
                    Milestones (POA&Ms) remediation costs to corresponding Exhibit 300s
                    for certain mission-critical systems. NIST Special Publication 800-65,
                    Integrating IT Security into the Capital Planning and Investment Control
                    Process, states “the POA&M process provides a direct link to the capital
                    planning process.” On October 17, 2001, OMB issued Memorandum
                    M-02-01, Guidance for Preparing and Submitting Security Plans of Action
                    and Milestones, stating “for each POA&M that relates to a project
                    (including systems) for which a capital asset plan and justification
                    (Exhibit 300) was submitted or was a part of the Exhibit 53, the unique
                    project identifier must be reflected on the POA&M.”

                    In line with this Federal guidance, VA policy requires that security be
                    included within the capital planning process. However, VA specific
                    guidance for integrating security into the budgeting process does not exist.
                    Consequently, VA lacks procedures to ensure traceability of POA&M
                    remediation costs to Exhibit 300s. For the future, formalized guidance is
                    needed to ensure security-related needs are consistently evaluated and
                    integrated into the capital planning budget process in accordance with set
                    standards. Without specific guidance, VA cannot ensure that information
                    security is integrated throughout the system life-cycle and adequate
                    funding is budgeted to meet information security requirements.

                    Recommendation

                    24.	 We recommend the Acting Assistant Secretary for Information and
                         Technology develop procedures to integrate information security costs
                         into the capital planning process while ensuring traceability of Plans of
                         Action and Milestones remediation costs to appropriate capital
                         planning budget documents. (This is a repeat recommendation from
                         last year.)




VA Office of Inspector General                                                                 18
                                                                  VA’s FISMA Audit for FY 2012


Finding 9           Contractor Systems Oversight

                    In FY 2012, VA did not fully implement contractor oversight procedures
                    as required by FISMA. According to FISMA Section 3544, an agency
                    should ensure adequate information security for systems that support its
                    operations, including those provided by another agency, contractor, or
                    other source. In addition, VA Handbook 6500.6, Contract Security,
                    provides detailed guidance on contractor systems oversight and
                    establishment of security requirements for all VA contracts involving
                    sensitive VA information.       Despite these requirements, our audit
                    disclosed several deficiencies in VA’s contractor oversight activities in
                    FY 2012. Specifically:

                    	 VA did not provide “Authorizations to Operate” for selected
                       contractor-owned and operated systems.
                    	 VA did not provide evidence that contractor system security controls
                       were appropriate.
                    	 VA did not provide an annual inventory of contractor systems,
                       including system interfaces and interconnection agreements.

                    Without implementing effective oversight mechanisms, VA cannot
                    ensure that contractor security controls adequately protect sensitive
                    systems and data in accordance with its information security
                    requirements.

                    Recommendations

                    25.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement procedures for overseeing contractor-
                         managed systems and ensuring information security controls
                         adequately protect VA sensitive systems and data. (This is a repeat
                         recommendation from last year.)
                    26.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement mechanisms for updating the Federal
                         Information Security Management Act systems inventory, including
                         interfaces with contractor-managed systems, and annually review
                         the systems inventory for accuracy.         (This is a repeat
                         recommendation from last year.)




VA Office of Inspector General                                                             19
                                                                  VA’s FISMA Audit for FY 2012


Finding 10          Security Awareness Training

                    We noted improvements as part of the CRISP initiative in providing
                    users with required role-based and security awareness training.
                    However, VA has not fully implemented automated processes to track
                    security awareness training for residents, volunteers, and contractors at
                    all VA facilities. As a result, our testing identified personnel who had
                    not completed VA’s security awareness training at some VA facilities.
                    VA Handbook 6500, Appendix D establishes high-level policy and
                    procedures for the Department’s security awareness training program,
                    requiring all users of sensitive information to annually complete VA’s
                    security awareness training.

                    VA uses the Talent Management System, an online training system, to
                    provide user access to a number of online training resources and track
                    required security awareness and other training for VA employees and
                    contractors. However, VA relies on manual processes to track fulfillment
                    of training requirements by residents and volunteers, as automated
                    tracking mechanisms have not been fully implemented. Without
                    automated tracking to support centralized monitoring of user training,
                    management cannot ensure that these personnel complete the annual
                    security awareness training requirements. Computer security awareness
                    training is essential to help employees and contractors understand their
                    information security and privacy responsibilities.

                    Recommendation

                    27.	 We recommend the Acting Assistant Secretary for Information and
                         Technology implement mechanisms to ensure all users with VA
                         network access participate in and complete required VA-sponsored
                         security awareness training.       (This is a modified repeat
                         recommendation from last year.)




VA Office of Inspector General                                                             20
                                                                  VA’s FISMA Audit for FY 2012


Summary of           The Department concurred with all findings and recommendations and
Response
                     prepared a response, which is presented in Appendix D. The Acting
from the
Acting               Assistant Secretary for Information and Technology stated that VA treats
Assistant            the protection of Veteran data very seriously. Accordingly, VA has
Secretary for        embarked on a cultural transformation with implementation of the
Information          Continuous Readiness in Information Security Program (CRISP). The
Technology
                     Acting Assistant Secretary stated that CRISP is a new operating model
                     for protecting Veteran private and sensitive information. The program
                     embodies an integrated approach to protecting sensitive information from
                     inappropriate exposure or loss. Management’s comments and corrective
                     action plans are generally responsive to the recommendations.
                     Recommendations will not close until relevant information security
                     policies/procedures are finalized and information security control
                     deficiencies are fully remediated. We will continue to evaluate VA’s
                     progress during our audit of the Department’s information security
                     program in FY 2013.




 VA Office of Inspector General                                                            21
                                                                                VA’s FISMA Audit for FY 2012


Appendix A           Status of Prior-Year Recommendations

                     Appendix A addresses the status of outstanding recommendations not
                     included in the main report and VA’s plans for corrective action. As
                     noted in the table below, some recommendations remain in progress.
                     During FY 2012, two recommendations were administratively closed
                     because VA’s corrective actions successfully addressed the underlying
                     risks; one recommendation was closed because it was superseded by a
                     more current recommendation. The corrective actions outlined below are
                     based on management assertions and results of our audit testing.

                           Table. Status of Prior Year Recommendations
                                                             Status
                                                                           Estimated
 Number                Recommendation                    (In Progress or                 Corrective Actions
                                                                           Completion
                                                             Closed)
FY 2011–02    We recommend the Assistant                Closed             Not          No exceptions were
              Secretary for Information and                                Applicable   identified during
              Technology dedicate resources to                                          FY 2012 FISMA
              remediate the large number of                                             testing.
              unresolved Plans of Action and
              Milestones in the near term while
              concurrently focusing on addressing
              high-risk system security
              deficiencies.

FY 2011–22    We recommend the Assistant                Closed             Not          No exceptions were
              Secretary for Information and                                Applicable   identified during
              Technology identify and ensure                                            FY 2012 FISMA
              personnel with specialized security                                       testing.
              responsibilities fulfill annual
              specialized computer security
              training requirements.


FY 2010–21    We recommend the Assistant                In Progress        September    VA is establishing a
              Secretary for Information and                                2013         Risk Management
              Technology develop mechanisms to                                          Governance Board,
              ensure risk assessments accurately                                        which will implement
              reflect the current control                                               uniform risk
              environment, compensating controls,                                       assessment procedures
              and the characteristics of the relevant                                   throughout VA.
              VA facilities.




VA Office of Inspector General                                                                               22
                                                                                 VA’s FISMA Audit for FY 2012



                           Table. Status of Prior Year Recommendations
                                                              Status
                                                                            Estimated
 Number                 Recommendation                    (In Progress or                 Corrective Actions
                                                                            Completion
                                                              Closed)
FY 2006–03    We recommend the Assistant                 In Progress        To Be        VA Directive and
              Secretary for Information and                                 Determined   Handbook 0710,
              Technology review and update all                                           Personnel Suitability
              applicable position descriptions to                                        and Security Program
              better describe sensitivity ratings and                                    documents have been
              better document employee personnel                                         updated.
              records and contractor files,
              including “Rules of Behavior”                                              VA developed action
              instructions, annual privacy and                                           items (March 2012) to
              Health Insurance Portability and                                           better coordinate
              Accountability Act of 1996 training                                        reviews of existing
              certifications, and position sensitivity                                   position descriptions,
              level designations.                                                        position risk and
                                                                                         sensitivity
                                                                                         determinations, and
                                                                                         current levels of
                                                                                         employee background
                                                                                         investigations.

                                                                                         This process will help
                                                                                         ensure consistent
                                                                                         application of VA
                                                                                         Directive 0710,
                                                                                         Personnel Suitability
                                                                                         and Security Program.




VA Office of Inspector General                                                                                23
                                                                             VA’s FISMA Audit for FY 2012



                         Table. Status of Prior Year Recommendations
                                                          Status
                                                                        Estimated
 Number                Recommendation                 (In Progress or                 Corrective Actions
                                                                        Completion
                                                          Closed)
FY 2006–04    We recommend the Assistant             In Progress        To Be        VA established the
              Secretary for Information and                             Determined   Security Investigation
              Technology ensure appropriate levels                                   Center to ensure
              of background investigations be                                        background
              completed for all applicable VA                                        investigations are
              employees and contractors in a                                         conducted.
              timely manner, implement processes
              to monitor and ensure timely                                           The Office of
              reinvestigations on all applicable                                     Operations, Security,
              employees and contractors, and                                         and Preparedness is
              monitor the status of the requested                                    coordinating actions to
              investigations.                                                        improve procedures for
                                                                                     ensuring background
                                                                                     investigations and
                                                                                     reinvestigations are
                                                                                     completed for all
                                                                                     applicable VA
                                                                                     employees and
                                                                                     contractors in a timely
                                                                                     manner.

                                                                                     Exceptions related to
                                                                                     timely background
                                                                                     investigations
                                                                                     continued to be
                                                                                     identified during
                                                                                     FY 2012 FISMA
                                                                                     testing.




VA Office of Inspector General                                                                               24
                                                                               VA’s FISMA Audit for FY 2012



                          Table. Status of Prior Year Recommendations
                                                            Status
                                                                          Estimated
 Number                Recommendation                   (In Progress or                 Corrective Actions
                                                                          Completion
                                                            Closed)
FY 2006–08    We recommend the Assistant               In Progress        To Be        VA developed
              Secretary for Information and                               Determined   Directive 6512, Secure
              Technology reduce wireless security                                      Wireless Technology
              vulnerabilities by ensuring sites have                                   and Wireless Security,
              an effective and up-to-date                                              to supplement VA
              methodology to protect against the                                       Handbook 6500. The
              interception of wireless signals and                                     Directive provides
              unauthorized access to the network                                       guidelines for
              and ensure the wireless network is                                       protecting VA wireless
              segmented and protected from the                                         networks from signal
              wired network.                                                           interception, enhancing
                                                                                       network security, and
                                                                                       segmenting VA’s
                                                                                       wireless network from
                                                                                       the wired network.

                                                                                       VA has begun
                                                                                       replacing the legacy
                                                                                       wireless networks with
                                                                                       more robust and secure
                                                                                       wireless networks,
                                                                                       defining strict
                                                                                       configuration
                                                                                       guidelines and
                                                                                       implementation plans.

                                                                                       VA has established the
                                                                                       National Wireless
                                                                                       Infrastructure Team to
                                                                                       ensure all authorized
                                                                                       VA wireless access
                                                                                       points use a standard
                                                                                       wireless network
                                                                                       configuration.

                                                                                       Potential rogue access
                                                                                       points continued to be
                                                                                       identified during
                                                                                       FY 2012 FISMA
                                                                                       testing.




VA Office of Inspector General                                                                              25
                                                                            VA’s FISMA Audit for FY 2012



                          Table. Status of Prior Year Recommendations
                                                         Status
                                                                       Estimated
 Number                Recommendation                (In Progress or                  Corrective Actions
                                                                       Completion
                                                         Closed)
FY 2006–09    We recommend the Assistant            In Progress        September    VA is developing and
              Secretary for Information and                            2013         integrating multiple
              Technology identify and deploy                                        technologies across the
              solutions to encrypt sensitive data                                   enterprise to encrypt
              and resolve clear text protocol                                       sensitive data, both at
              vulnerabilities.                                                      rest and in transit. The
                                                                                    technologies include:

                                                                                    • Deploy Sanctuary
                                                                                      across the enterprise
                                                                                      to ensure only
                                                                                      authorized, encrypted
                                                                                      Universal Serial Bus
                                                                                      devices are in use.

                                                                                    • Deploy laptop and
                                                                                      desktop encryption.

                                                                                    • Deploy Data
                                                                                      Transmission/
                                                                                      Attachmate to safely
                                                                                      host information on
                                                                                      the Web.

                                                                                    VA’s “Visibility to
                                                                                    Everything” (Server
                                                                                    and Desktop) program
                                                                                    verifies deployment of
                                                                                    the above technologies
                                                                                    and allows the
                                                                                    Department to
                                                                                    remediate identified
                                                                                    deficiencies.

                                                                                    Clear text protocol
                                                                                    vulnerabilities
                                                                                    continued to be
                                                                                    identified during our
                                                                                    FY 2012 FISMA
                                                                                    testing.

FY 2006–13    We recommend the Assistant            Closed             Not
              Secretary for Information and                            Applicable
              Technology complete the               Superceded by
              implementation of two-factor          recommendation
              authentication in accordance with     FY 2012–11.
              NIST Special Publication 800-53.




VA Office of Inspector General                                                                              26
                                                                 VA’s FISMA Audit for FY 2012


Appendix B          Background

                    On December 17, 2002, then-President George W. Bush signed FISMA
                    into law, reauthorizing key sections of the Government Information
                    Security Reform Act. FISMA provides a comprehensive framework for
                    ensuring effective security controls over information resources
                    supporting Federal operations and assets. FISMA also provides a
                    mechanism for improved oversight of Federal agency information
                    security programs.

                    FISMA requires each Federal agency to develop, document, and
                    implement an agency-wide security program. VA’s security program
                    should protect the information systems that support the operations,
                    including those provided or managed by another agency, contractor, or
                    other source. As specified in FISMA, agency heads are responsible for
                    conducting annual evaluations of information security programs and
                    practices.

                    FISMA also requires agency Inspectors General to assess the
                    effectiveness of agency information security programs and practices.
                    Guidance has been issued by OMB in both circulars and memoranda and
                    by NIST in its 800 series of special publications supporting FISMA
                    implementation covering significant aspects of the law. In addition,
                    Federal Information Processing Standards have been issued to establish
                    agency baseline security requirements.

                    OMB and DHS provide instructions to Federal agencies and Inspectors
                    Generals for preparing annual FISMA reports. In September 2012, OMB
                    issued Memorandum M-12-20, FY 2012 Reporting Instructions for the
                    Federal Information Security Management Act and Agency Privacy
                    Management. Federal agencies are to focus on implementing the
                    Administration’s three cybersecurity priorities established in FY 2012:
                    (1) Continuous Monitoring, (2) Trusted Internet Connection capabilities
                    and traffic consolidation, and (3) strong authentication using Personal
                    Identity Verification cards for logical access. The FY 2012 FISMA
                    metrics issued by DHS established minimum and target levels of
                    performance for these priorities, as well as metrics for other key
                    performance areas. To comply with the reporting requirements, agencies
                    must carry out the following activities.

                    	 Chief Information Officers will submit monthly data feeds through
                       CyberScope, the FISMA reporting application. Agencies must
                       upload data from their automated security management tools into
                       CyberScope on a monthly basis for a specified number of data
                       elements.



VA Office of Inspector General                                                            27
                                                                   VA’s FISMA Audit for FY 2012


                    	 Agencies must respond to security posture questions on a
                       quarterly/annual basis. These questions address areas of risk and are
                       designed to assess the implementation of security capabilities and
                       measure their effectiveness.
                    	 The Chief Information Officers must report to DHS on a quarterly
                       basis, and Inspectors General and Senior Agency Officials for Privacy
                       must report to DHS on an annual basis.
                    	 Agencies must participate in CyberStat accountability sessions and
                       agency interviews conducted by DHS, OMB, and the White House
                       National Security Staff.
                    DHS reporting instructions also focus on performance metrics related to
                    key control activities, such as developing a complete inventory of major
                    information systems, providing security training to personnel, testing and
                    evaluating security controls, and testing continuity plans. The OIG
                    contracted with the independent accounting firm CliftonLarsonAllen LLP
                    to conduct the annual FISMA audit for FY 2012. The OIG provided
                    oversight of the contractor’s performance.




VA Office of Inspector General                                                              28
                                                                  VA’s FISMA Audit for FY 2012


Appendix C 	 Scope and Methodology

                    The FISMA audit determines the extent to which VA’s information
                    security program complies with FISMA requirements and relevant
                    guidelines. The audit team considered Federal Information Processing
                    Standards and NIST guidance during its audit. Audit procedures
                    included reviewing policies and procedures, interviewing employees,
                    reviewing and analyzing records, and reviewing supporting
                    documentation. The VA OIG provided oversight of the audit team’s
                    performance.

                    This year’s work included evaluation of 81 selected major applications
                    and general support systems hosted at 22 VA facilities to support
                    Veterans Health Administration, Veterans Benefit Administration, and
                    National Cemetery Administration lines of business. The audit teams
                    performed vulnerability tests and evaluated management, operational,
                    technical, and application controls supporting major applications and
                    general support systems.

                    In connection with the audit of VA’s FY 2012 consolidated financial
                    statements, CliftonLarsonAllen LLP evaluated general computer and
                    application controls of VA’s major financial management systems,
                    following the Government Accountability Office’s Federal Information
                    System Controls Audit Manual methodology. Significant financial
                    systems deficiencies identified during CliftonLarsonAllen’s evaluation
                    are included in this report.

Site Selections 	   In selecting VA facilities for testing, the audit teams considered the
                    geographic region, size, and complexity of each hosting facility, as well
                    as the criticality of systems hosted at the facility. Sites selected for
                    testing included:

                       Information Technology Center—Austin, TX
                       VA Medical Facility—Birmingham, AL
                       VA Medical Facility—Chillicothe, OH
                       VA Medical Facility—Columbia, SC
                       Capitol Region Data Center—Falling Waters, WV
                       Information Technology Center—Hines, IL
                       VA Medical Facility—Lexington, KY
                       VA Medical Facility—Loma Linda, CA
                       Capitol Regional Readiness Center—Martinsburg, WV
                       VA Medical Facility—Memphis, TN

VA Office of Inspector General                                                             29
                                                                  VA’s FISMA Audit for FY 2012


                       Information Technology Center—Philadelphia, PA
                       VA Insurance Center—Philadelphia, PA
                       VA Regional Office—Philadelphia, PA
                       Bank of America Contractor-Managed Facility—Plano, TX
                       National Cemetery Administration—Quantico, VA
                       VA Medical Facility—Salt Lake City, UT
                       VA Regional Office—Salt Lake City, UT
                       VA Central Office—Washington, DC
                       VA Medical Facility—Washington, DC
                       National Capital Region Benefits Office—Washington, DC
                       VA Medical Facility—West Palm Beach, FL
                       VA Medical Facility—White River Junction, VT

                    Vulnerability assessment procedures used automated scanning tools and
                    validation procedures to identify high-risk common security
                    vulnerabilities affecting mission-critical systems.          In addition,
                    vulnerability tests evaluated selected servers and work stations residing
                    on the network infrastructure; databases hosting major applications; Web
                    application servers providing Internet and Intranet services; and network
                    devices, including wireless connections.

Government          The FISMA audit was conducted in compliance with Government
Audit               Auditing Standards, July 2007 Revision, issued by the Comptroller
Standards
                    General of the United States. The teams conducted their evaluations
                    from April through September 2012. Standards for Performance Audits
                    are applicable for this engagement. These standards require the teams
                    plan and perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for findings and conclusions based on the
                    audit objectives. The evidence obtained provides a reasonable basis for
                    the findings and conclusions based on the audit objective.




VA Office of Inspector General                                                             30
                                                                              VA’s FISMA Audit for FY 2012


Appendix D                Acting Assistant Secretary for Information and
                          Technology Comments


                  Department of
                  Veterans Affairs
                                                                Memorandum
          Date:	          May 30, 2013

          From:	          Acting Assistant Secretary for Information and Technology (005)

          Subj:	          Draft Audit Report: Federal Information Security Management Act (FISMA)
                          Assessment for FY 2012

            To:           Assistant Inspector General for Audits and Evaluations (52CT)

                   1. 	   Thank you for the opportunity to review the subject draft audit report. The
                          Office of Information and Technology concurs and submits the attached
                          detailed comments to the report’s 32 recommendations.

                   2. 	   VA treats the protection of Veteran data very seriously. Toward that end,
                          VA has embarked on a cultural transformation with implementation of the
                          Continuous Readiness in Information Security Program (CRISP). CRISP is
                          the new operating model for protecting our Veterans private and sensitive
                          information. The program embodies an integrated approach to protecting
                          sensitive information from inappropriate exposure or loss. Its framework
                          depends on broad support to achieve many near-term goals in this fiscal
                          cycle.

                   3. 	   We appreciate your time and attention to our information security program.
                          If you have any questions, contact me at 202-461-6910 or have a member
                          of your staff contact Gary Stevens, Director, Office of Cyber Security, at
                          202-632-7538.

                          (original signed by:)

                          Stephen W. Warren

                          Attachment




VA Office of Inspector General                                                                          31
                                                                     VA’s FISMA Audit for FY 2012


                          Office of Information and Technology 

                            Comments to Draft OIG Report,

            “Federal Information Security Management Act Audit for FY 2012” 

                       OIG Recommendations and OIT Responses: 


Recommendation 1: We recommend the Acting Assistant Secretary for Information and
Technology fully develop and implement an agency-wide risk management governance
structure, along with mechanisms to identify, monitor, and manage risks across the enterprise.
(This is a repeat recommendation from last year.)

OIT Response: Concur. The Office of Information Technology (OIT) has established an
Enterprise Risk Management (ERM) organization that manages risks that are applicable to the
OIT enterprise. Within ERM, the Risk Assessment and Mitigation (RAM) office has an IT
Security and Compliance Risk Division that is focused on the assessment and mitigation of
information security risks that meet the organization's definition of enterprise-level risk. The
Office of Information Security (OIS) also has a Risk Management office that addresses
information security risks that do not rise to the level of OIT enterprise risks.

OIT has also procured a Governance, Risk, and Compliance (GRC) tool and is currently
implementing the product to facilitate the automated collection of certain risk management
information. The GRC tool will be VA’s sole repository capable of tracking the real-time
security posture of the VA’s IT systems, by exploiting existing IT monitoring and tracking tools,
such as Tivoli End-Point Manager (TEM), SolarWinds, NESSUS, to extract, in real-time, up to
54 NIST controls, while capturing the remaining controls via automated workflows. The result
is a more comprehensive understanding of the security posture of the VA far exceeding any past
capabilities.

Target Completion Date: August 31, 2013

Recommendation 2: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms to ensure sufficient supporting documentation is captured in
the central database to justify closure of Plans of Action and Milestones. (This is a repeat
recommendation from last year.)

OIT Response: Concur. The Assistant Secretary for Information and Technology has
implemented an interim solution, consisting of quarterly Plans of Action and Milestone (POAM)
reviews as well as an external quality assurance assessment to ensure accurate supporting
documentation for POAM closure. However, upon completion of the GRC tool, automatic
processes are integrated into the framework, ensuring accuracy POAM closure justification is
included in a centralized database.

Target Completion Date: August 31, 2013

Recommendation 3: We recommend the Acting Assistant Secretary for Information and
Technology define and implement clear roles and responsibilities for developing, maintaining,
completing, and reporting Plans of Action and Milestones. (This is a repeat recommendation
from last year.)


VA Office of Inspector General                                                                32
                                                                    VA’s FISMA Audit for FY 2012


OIT Response: Concur. In tandem with the implementation of the GRC tool, VA has defined
and implemented clear roles and responsibilities for the development, maintenance completion
and reporting of all POAMs.

Target Completion Date: August 31, 2013 (tied to the implementation of the GRC tool)

Recommendation 4: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms to ensure Plans of Action and Milestones are updated to
accurately reflect current status information. (This is a repeat recommendation from last year.)

OIT Response: Concur. With the implementation of the GRC tool which consists of
continuous monitoring capabilities and automated vulnerability and configuration feeds, POAMs
will be more accurately reflective of current status information.

Target Completion Date: August 31, 2013 (tied to the implementation of the GRC tool)

Recommendation 5: We recommend the Acting Assistant Secretary for Information and
Technology develop mechanisms to ensure system security plans reflect current operational
environments, including accurate system interconnection and ownership information. (This is a
repeat recommendation from last year.)

OIT Response: Concur. VA established the OIT Security Calendar in 2012 which includes the
annual updates to the System Security Plans. With the implementation of the GRC tool, a new
mechanism for creating and maintaining system security plans will be established which will
include reflection of ownership and operational environments. Many of the pieces within the
system security plans will be automated, allowing for more accurate information to be
maintained. A Continuous Readiness in Information Security Program (CRISP) Management
Framework has been established to ensure verification and compliance.

Target Completion Date: March 31, 2014

Recommendation 6: We recommend the Acting Assistant Secretary for Information and
Technology implement improved processes for updating key security documents such as risk
assessments, security impact analyses, and security self assessments on at least an annual basis
and ensure all required information accurately reflects the current environment and new risks in
accordance with Federal standards. (This is a new recommendation.)

OIT Response: Concur. As with response to finding #5, new and improved processes for
maintaining documentation such as risk assessments, security impact analyses and security self-
assessments will be phased in consistent with the 3-year implementation plan of the GRC Tool.
Many of the pieces within the documentation plans will be automated, allowing for more
accurate information to be maintained. OIT will validate key security documents annually.

Target Completion Date: August 31, 2013

Recommendation 7: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms to enforce VA password policies and standards on all


VA Office of Inspector General                                                               33
                                                                     VA’s FISMA Audit for FY 2012


operating systems, databases, applications, and network devices. (This is a repeat
recommendation from last year.)

OIT Response: Concur. VA has implemented a process for monitoring password policies via
predictive scans and remediation processes on OIT systems. Minimum requirements are in place
to enforce VA passwords and standards on newer systems. VA’s monthly predictive scanning
process has drastically improved finding vulnerabilities with Password policies and is
continually improving in this area.

Target Completion Date: January 31, 2014

Recommendation 8: We recommend the Acting Assistant Secretary for Information and
Technology implement periodic access reviews to minimize access by system users with
incompatible roles, permissions in excess of required functional responsibilities, and
unauthorized accounts.

OIT Response: Concur. OIT has implemented quarterly reviews of all users with elevated
privileges on IT Systems. Additionally, VA conducts semi-annual reviews of user accounts to
ensure system users have the appropriate level of access and segregation of duties.

Target Completion Date: Complete and closed.

Recommendation 9: We recommend the Acting Assistant Secretary for Information and
Technology enable system audit logs and conduct centralized reviews of security violations on
mission-critical systems. (This is a repeat recommendation from last year.)

OIT Response: Concur. Implementation is currently unfunded in terms of storage and staffing
within the medical center/field operation environment. These tools have been implemented in
our Data Center and by our Network and Security Operations Center. The installation of the
devices for our field locations is contingent on funding in FY 2014.

Target Completion Date: September 30, 2014 (contingent upon receipt of funds)

Recommendation 10: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms to ensure all remote access computers have updated security
patches and antivirus definitions prior to connecting to VA information systems. (This is a repeat
recommendation from last year.)

OIT Response: Concur. A workgroup has been established to develop mechanisms to ensure
all remote access computers have updated security patches and antivirus definitions prior to
connecting to VA information systems.

Target Completion Date: January 31, 2014

Recommendation 11: We recommend the Acting Assistant Secretary for Information and
Technology implement two-factor authentication for remote access throughout the agency. (This
is a new recommendation.)


VA Office of Inspector General                                                                 34
                                                                       VA’s FISMA Audit for FY 2012


OIT Response: Concur. All users who require access to VA network resources will be
required to utilize Two-Factor Authentication (2FA) for secure remote access by September 30,
2013.

Target Completion Date: September 30, 2013

Recommendation 12: We recommend the Acting Assistant Secretary for Information and
Technology implement effective automated mechanisms to continuously identify and remediate
security deficiencies on VA’s network infrastructure, database platforms, and Web application
servers. (This is a modified repeat recommendation from last year.)

OIT Response: Concur. VA has implemented predictive scanning beginning February 2013.
This scanning allows for the identification of vulnerabilities, remediation of those vulnerabilities
and compliance monitoring. Security Incident and Event Management (SIEM) Procurement by
the NSOC is scheduled for FY14.

Target Completion Date: September 30, 2014

Recommendation 13: We recommend the Acting Assistant Secretary for Information and
Technology implement a patch and vulnerability management program to address security
deficiencies identified during our assessments of VA’s Web applications, database platforms,
network infrastructure, and work stations. (This is a modified repeat recommendation from last
year.)

OIT Response: Concur. VA implemented predictive scanning beginning February of 2013.
This scanning allows for the identification of vulnerabilities, remediation of those vulnerabilities
and compliance monitoring. A Security Management and Analytics office has been established
and will continue to staff through September 2013 to monitor security deficiencies identified
during our assessments of VA’s Web applications, database platforms, network infrastructure,
and work stations. Within Enterprise Operations, a consistent program for identifying and
remediating vulnerabilities has been in place for several years.

Target Completion Date: June 30, 2013

Recommendation 14: We recommend the Acting Assistant Secretary for Information and
Technology implement standard security configuration baselines for all VA operating systems,
databases, applications, and network devices. (This is a repeat recommendation from last year.)

OIT Response: Concur. Baselines have been developed for enterprise level operating systems
and platforms. Additional baselines are needed as new technology enters the environment. An
intake process for this has been created and workflows/processes developed for this function.
Known needed baselines include printers, thin clients, and SQL databases. These are being
developed and will be completed by the target date.

Target Completion Date: September 30, 2013

Recommendation 15: We recommend the Acting Assistant Secretary for Information and
Technology implement procedures to enforce a system development and change control

VA Office of Inspector General                                                                   35
                                                                       VA’s FISMA Audit for FY 2012


framework that integrates information security throughout the life cycle of each system. (This is
a repeat recommendation from last year.)

OIT Response: Concur. VA has implemented the Project Management Accountability System
(PMAS) process and additional processes to address and enforce a system development and
change control framework that integrates information security throughout the life cycle of each
system. The Office of Cyber Security is in the process of coordinating with the relevant program
offices to identify potential opportunities to inject security within the system development and
change control framework.

Target Completion Date: September 30, 2014

Recommendation 16: We recommend the Acting Assistant Secretary for Information and
Technology implement processes to ensure information system contingency plans are updated
with the required information and lessons learned are communicated to senior management.
(This is a modified repeat recommendation from last year.)

OIT Response: Concur. Lessons learned were incorporated into the annual security calendar.
A complete redesign was completed of the IS Contingency and Disaster Recovery
documentation and testing processes in 2012. This redesign included the updating of required
after action reports and lessons learned from Contingency and Disaster recovery testing.

Target Completion Date: September 30, 2013

Recommendation 17: We recommend the Acting Assistant Secretary for Information and
Technology develop and implement a process for ensuring the encryption of backup data prior to
transferring the data offsite. (This is a new recommendation.)

OIT Response: Concur. VA has identified the issue of backup tape encryption as a
vulnerability. The Assistant Secretary for Information Technology has deferred a decision to
ensure the encryption of backup tape data through a Risk Based Decision (RBD). This national
RBD identifies mitigating controls to compensate the lack of backup tape encryption and will be
further documented in local security documentation for systems that do not support backup tape
encryption.

Target Completion Date: Completed

Recommendation 18: We recommend the Acting Assistant Secretary for Information and
Technology ensure that agreements for alternate processing sites have been established that
define the roles and responsibilities for alternate locations in the event of a disaster. (This is a
new recommendation.)

OIT Response: Concur. Region level alternate processing site agreements that define the roles
and responsibilities for alternate locations are in development.

Target Completion Date: June 30, 2013



VA Office of Inspector General                                                                   36
                                                                    VA’s FISMA Audit for FY 2012


Recommendation 19: We recommend the Acting Assistant Secretary for Information and
Technology fully implement an automated 24-hour security event and incident correlation
solution to monitor security for all systems interconnections, database security events, and
mission-critical platforms supporting VA programs and operations. (This is a modified repeat
recommendation from last year.)

OIT Response: Concur. Security Information & Event Management (SIEM) Procurement by
the NSOC is scheduled for FY14.

Target Completion Date: September 30, 2014

Recommendation 20: We recommend the Acting Assistant Secretary for Information and
Technology identify all external network interconnections and ensure appropriate
Interconnection Security Agreements and Memoranda of Understanding are in place to govern
them. (This is a repeat recommendation from last year.)

OIT Response: Concur. All Memoranda of Understanding (MOU) and Interconnection
Security Agreements (ISA) for known external network connections are currently under review
(as part of OIT’s annual review) and will be established or updated to reflect operational
environments. As part of this effort, OIT issued a data call to report and document instances of
air-gapped networks. OIT has documented these known connections (a new requirement) and
has also published guidance on this subject.

Target Completion Date: September 30, 2013

Recommendation 21: We recommend the Acting Assistant Secretary for Information and
Technology implement more effective agency-wide incident response procedures to ensure
timely resolution of computer security incidents in accordance with VA set standards. (This is a
modified repeat recommendation.)

OIT Response: Concur. VA has segregated the Network Security Operations Center into
communications and cyber response components to allow more efficient and effective agency
wide cyber incident response in order to ensure timely resolution of computer security incidents
in accordance with VA set standards. Additional implementation involves a ticket escalation
process to ensure that computer security events are being addressed timely.

Target Completion Date: September 30, 2013

Recommendation 22: We recommend the Acting Assistant Secretary for Information and
Technology implement effective continuous monitoring processes to identify and prevent the use
of unauthorized application software, hardware (including personal storage devices), and system
configurations on its networks. (This is a repeat recommendation from last year.)

OIT Response: Concur. VA utilizes many tools such as Intrusion Protection System, Firewalls,
Wireless Access Firewall, Tivoli Endpoint Management (Big Fix), anti-virus and Sanctuary to
detect the presence and use of unauthorized software and hardware. The only item left to
proactively monitor, prevent installation and remove unauthorized software is in development.
The effort to design the solution is underway.

VA Office of Inspector General                                                               37
                                                                     VA’s FISMA Audit for FY 2012


Target Completion Date: September 30, 2014

Recommendation 23: We recommend the Acting Assistant Secretary for Information and
Technology develop a comprehensive software inventory process to identify major and minor
software applications used to support VA programs and operations. (This is a repeat
recommendation from last year.)

OIT Response: Concur. VA has several tools such as Tivoli Endpoint Manager, Microsoft’s
System Center Configuration Manager and Orion, which when fully deployed will identify
major and minor software applications.

Target Completion Date: December 30, 2013

Recommendation 24: We recommend the Acting Assistant Secretary for Information and
Technology develop procedures to integrate information security costs into the capital planning
process while ensuring traceability of Plans of Action and Milestones remediation costs to
appropriate capital planning budget documents. (This is a repeat recommendation from last
year.)

OIT Response: Concur. Target Completion Date: August 30, 2013

Recommendation 25: We recommend the Acting Assistant Secretary for Information and
Technology implement procedures for overseeing contractor managed systems and ensuring
information security controls adequately protect VA sensitive systems and data. (This is a repeat
recommendation from last year.)

OIT Response: Concur. VA 6500.6 provides guidance regarding oversight of contractor
managed systems. Consistent with this policy, VA requires managed service providers to
comply with these standards, inclusive of supporting on site Security Controls Assessments
(SCAs) and allowing routine compliance monitoring by the NSOC. OIT will work the TAC to
ensure appropriate language is included in all OIT contracts.

Target Completion Date: Completed

Recommendation 26: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms for updating the Federal Information Security Management
Act systems inventory, including interfaces with contractor-managed systems, and annually
review the systems inventory for accuracy. (This is a repeat recommendation from last year.)

OIT Response: Concur. The VA is continuing to improve efforts towards obtaining a 100%
accuracy of its FISMA systems. At present, Tivoli Endpoint Manager is present on 95% of the
Department’s servers and desktops. Further, Solarwinds is on an equivalent percentage of the
network devices. Excluded systems and devices defined as other, are being reviewed to
determine the appropriate steps required to complete the inventory. OIT will put in place a
process to annually review the inventory for accuracy.

Target Completion Date: September 30, 2013


VA Office of Inspector General                                                                38
                                                                     VA’s FISMA Audit for FY 2012


Recommendation 27: We recommend the Acting Assistant Secretary for Information and
Technology implement mechanisms to ensure all users with VA network access participate in
and complete required VA-sponsored security awareness training. (This is a modified repeat
recommendation from last year.)

OIT Response: Concur. VA Deputy Secretary signed the CRISP Sustainment memo (VAIQ
7227211) that required all users of VA Computer systems and sensitive information be enrolled
in the Talent Management System (TMS) by March 31, 2013. VA has maintained better than
97.6% compliance for Information Security Training.

Target Completion Date: Complete and Closed

Recommendation FY 2010–21: We recommend the Assistant Secretary for Information and
Technology develop mechanisms to ensure risk assessments accurately reflect the current
control environment, compensating controls, and the characteristics of the relevant VA facilities.

OIT Response - Status of Corrective Actions: With the implementation of the GRC Tool,
new and improved processes for maintaining documentation such as risk assessments are being
established. A percentage of the controls for each VA Information System (primarily those in the
technical control family) will be monitored automatically and continuously, allowing for more
accurate, complete, and timely information to be maintained. The GRC Tool will greatly
improve the efficiency with which some controls are assessed, facilitating more timely risk
management decision-making and enabling ongoing authorizations to operate. OIT is continuing
to develop and refine an Information Security Continuous Monitoring (ISCM) program. OIT’s
ISCM program will not only address which controls will be monitored continuously via the GRC
Tool, but will also include plans to periodically assess the remaining controls that cannot be
automated and must continue to be assessed manually. Additionally, ERM will develop a
program to periodically assess the automated tools providing input to the GRC Tool to ensure
they are providing accurate and complete information.

Target Completion Date: September 30, 2013

Recommendation FY 2006–03: We recommend the Assistant Secretary for Information and
Technology review and update all applicable position descriptions to better describe sensitivity
ratings and better document employee personnel records and contractor files, including “Rules
of Behavior” instructions, annual privacy and Health Insurance Portability and Accountability
Act of 1996 training certifications, and position sensitivity level designations.

OIT Response - Status of Corrective Actions: The office responsible for this activity is the
Office of Human Resources and Administration. The Assistant Secretary for Information
Technology is actively partnering with the Office of Operations, Security and Preparedness and
the Office of Human Resources and Administration to remediate this finding.

Target Completion Date: January 31, 2014

Recommendation FY 2006–04: We recommend the Assistant Secretary for Information and
Technology ensure appropriate levels of background investigations be completed for all
applicable VA employees and contractors in a timely manner, implement processes to monitor

VA Office of Inspector General                                                                 39
                                                                    VA’s FISMA Audit for FY 2012


and ensure timely reinvestigations on all applicable employees and contractors, and monitor the
status of the requested investigations.

OIT Response - Status of Corrective Actions: The office responsible for this activity is the
Office of Operations, Security and Preparedness. The Assistant Secretary for Information
Technology is partnering with the Office of Operations, Security and Preparedness and the
Office of Human Resources and Administration to remediate this finding.

Target Completion Date: September 30, 2014

Recommendation FY 2006–08: We recommend the Assistant Secretary for Information and
Technology reduce wireless security vulnerabilities by ensuring sites have an effective and up-
to-date methodology to protect against the interception of wireless signals and unauthorized
access to the network and ensure the wireless network is segmented and protected from the
wired network.

OIT Response - Status of Corrective Actions: 50% of VA’s wireless infrastructure has been
upgraded to meet this requirement. The remaining 50% of the wireless enterprise is an unfunded
but scheduled for funding in FY14.

Target Completion Date: September 30, 2014

Recommendation FY 2006–09: We recommend the Assistant Secretary for Information and
Technology identify and deploy solutions to encrypt sensitive data and resolve clear text
protocol vulnerabilities.

OIT Response - Status of Corrective Actions: VA is in the process of encrypting Desktops
and Mobile Devices. Additional actions are under way to restrict the use of clear text protocols
such as telnet and FTP.

Target Completion Date: September 30, 2013




VA Office of Inspector General                                                               40
                                                            VA’s FISMA Audit for FY 2012


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgements

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments    Michael Bowman, Director
                                         Carol Buzolich
                                         Elijah Chapman
                                         Neil Packard
                                         Richard Purifoy
                                         Felita Traynham




VA Office of Inspector General                                                       41
                                                                    VA’s FISMA Audit for FY 2012


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs 

                    House Appropriations Subcommittee on Military Construction, 

                     Veterans Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction,
                     Veterans Affairs and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    Government Accountability Office
                    Office of Management and Budget
                    Department of Homeland Security




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               42
